     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

May 26, 2010

Report Number: A-04-07-00028

Secretary Tom Arnold
Agency for Health Care Administration
2727 Mahan Drive – Mail Stop 8
Tallahassee, FL 32308

Dear Mr. Arnold:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Florida’s Developmental Disabilities Medicaid
Administrative Claiming Costs for the Period October 1, 2003, Through September 30, 2006.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-07-00028 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Secretary Tom Arnold


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
   Department of Health & Human Services
              OFFICE OF 

         INSPECTOR GENERAL 





REVIEW OF FLORIDA’S DEVELOPMENTAL 

      DISABILITIES MEDICAID 

ADMINISTRATIVE CLAIMING COSTS FOR 

    THE PERIOD OCTOBER 1, 2003,

   THROUGH SEPTEMBER 30, 2006 





                         Daniel R. Levinson

                          Inspector General 


                             May 2010

                           A-04-07-00028 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

At the State level, the Florida Agency for Health Care Administration (Medicaid agency)
administers the Medicaid program. In 2003, Florida’s Department of Financial Services entered
into a revenue maximization agreement with a contractor to develop programs which identify
State costs that are eligible for Federal reimbursement and the efforts required to claim the
Federal revenue for various State Agencies, including the Medicaid agency and its sub-agency,
the Department of Children and Families (DCF).

In this regard, the State implemented the Developmental Disabilities Medicaid administrative
claiming (DDMAC) program initiative to maximize administrative claiming for DCF’s
Developmental Disabilities program. The program was designed to allocate administrative costs
to the agencies benefiting from DCF’s Developmental Disabilities program and then to claim the
costs for Federal reimbursement. To support the various agencies’ claim for administrative
costs, the contractor worked with DCF to document staff activities and relate them directly to
program functions using a Random Moment Sampling System (RMSS).

Under the RMSS, sampled functions or activities in which a particular samplee was engaged at a
specific time (strikes) were used to determine how to allocate pooled Developmental Disabilities
administrative costs to the various agencies, including the Medicaid agency. The portion of
administrative costs allocated to the Medicaid agency was based on its percentage of Medicaid
strikes in relation to total RMSS strikes.

For Federal fiscal years 2004 through 2006, the Medicaid agency claimed $34,169,896 in
DDMAC costs and received $16,985,259 in Federal financial participation (FFP) attributable to
the DDMAC program.

OBJECTIVE

Our objective was to determine whether the Florida Medicaid agency claimed DDMAC costs in
accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The Florida Medicaid agency did not always claim DDMAC costs in accordance with Federal
and State requirements. Based on our sample results of the RMSS Medicaid-reimbursable


                                               i
strikes, we estimated that the Medicaid agency received $1,190,949 in FFP for $2,606,617 in
administrative costs that did not comply with Federal and State requirements during Federal
fiscal years 2004 through 2006. We are not recommending recovery of the estimated
overpayment because, although our stratified random sample was statistically valid, it did not
identify a minimum of six errors per strata as required by our statistical policy.

Our sample of 105 RMSS Medicaid-reimbursable strikes identified the following eight strikes
that did not comply with Federal and State requirements and, therefore, were not Medicaid-
reimbursable:

   	 three strikes for which the comments did not support a Medicaid-reimbursable activity
      code,

   	 three strikes for which the sample failed to annotate the correct sample time and/or date,

   	 one strike which was not properly validated, and

   	 one strike that contained unauthorized changes.

We did not find errors in the remaining 97 RMSS Medicaid-reimbursable strikes.

The Medicaid agency inappropriately claimed FFP for administrative costs because the State
agency and its partners in the DDMAC program initiative did not have adequate controls to
prevent non-qualifying strikes (about an 8 percent error rate) from being counted as Medicaid-
eligible strikes. Furthermore, RMSS participants were not adequately trained in RMSS
procedures.

RECOMMENDATION

We recommend that the Medicaid agency strengthen existing procedures to ensure that all RMSS
participants are sufficiently trained in RMSS procedures.

FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS

In written comments on our draft report, the Medicaid agency stated it would work diligently to
address the recommendations. The Medicaid agency’s comments are included in their entirety as
Appendix B.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1 


          BACKGROUND .................................................................................................................1 

              Medicaid Medical Assistance Programs ..................................................................1 

              Florida Agency for Healthcare Administration .......................................................1 

              Medicaid Contingency Fee Arrangements in Florida ..............................................1 

              Developmental Disabilities Medicaid Administrative 

                Claiming Program Initiative ................................................................................1 

              Administrative Cost Allocation Methodology .........................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2 

               Objective ..................................................................................................................2 

               Scope........................................................................................................................2 

               Methodology ............................................................................................................2          


FINDINGS AND RECOMMENDATION...................................................................................3


          PROGRAM REQUIREMENTS ..........................................................................................4                        

              Federal Law .............................................................................................................4
              U.S. Department of Health & Human Services Guide ............................................4 

              Florida’s Cost Allocation Plan.................................................................................5 


          UNALLOWABLE MEDICAID ADMINISTRATIVE COSTS .........................................5 

              Random Moment Sampling System Errors .............................................................5 

              Noncompliance with Program Requirements ..........................................................6 

              Excessive Medicaid Administrative Costs and Estimated Overpayments ..............6 


          RECOMMENDATION .......................................................................................................7                 


FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS ..............7 


APPENDIXES

          A: ESTIMATION METHODOLOGY

          B: FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS




                                                                    iii
                                       INTRODUCTION 


BACKGROUND

Medicaid Medical Assistance Programs

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Florida Agency for Health Care Administration

The Florida Agency for Health Care Administration (Medicaid agency) administers the Medicaid
program in Florida. For Federal fiscal years 2004 through 2006, the Medicaid agency claimed
$34,169,896 in Developmental Disabilities Medicaid administrative claiming (DDMAC) costs
and received $16,985,259 in Federal financial participation (FFP) attributable to the DDMAC
program.

Medicaid Contingency Fee Arrangements in Florida

In 2003, the Florida Department of Financial Services engaged a contractor to “maximize
Federal revenues from all appropriate funding sources.” The contract period was for 5 years,
beginning in September 2003. According to the contract terms, the contractor was to develop
program initiatives to identify and recover Federal funding for several different State Agencies,
including the Medicaid agency.

Developmental Disabilities Medicaid Administrative Claiming Program Initiative

One of the contractor’s initiatives applicable to the Medicaid agency was the DDMAC program
initiative. According to the contractor, the scope of the DDMAC program was to “Maximize
Medicaid administrative claiming for the Developmental Disabilities Program offices at the
[S]tate and district levels.”

In July 2003, the contractor began the DDMAC program initiative with the Department of
Children and Families (DCF). DCF is Florida’s largest social service agency. In late 2005, the
DDMAC program initiative was transitioned from DCF to the Agency for Persons with
Disabilities (APD), formerly a component of DCF.

The implementation of the DDMAC program initiative required the contractor to assist the State
in modifying its approved Cost Allocation Plan (CAP). Section 14 of the CAP contained
guidance on proper administration of the Random Moment Sampling System (RMSS) as it



                                                1

related to the Developmental Disabilities program.1 According to the contractor, the RMSS is
used to document staff activities and relate them directly with program functions. The
information is then used to determine how funds should be claimed among the various programs
for Federal reimbursement.

Administrative Cost Allocation Methodology

The ultimate purpose of the RMSS was to allocate costs to the benefiting agencies. Under the
RMSS, random dates and times for individual sample moments were chosen by a computer
program. At the selected date and time, the worker completed a response form that reflected the
task being performed at the moment and the activity being conducted within the Developmental
Disabilities program. Sampled functions or activities in which a particular samplee was engaged
at a specific time (strikes) were used to determine how to allocate pooled Developmental
Disabilities administrative costs to the various agencies, including the Medicaid agency. The
portion of administrative costs allocated to the Medicaid agency was based on its percentage of
Medicaid strikes in relation to total RMSS strikes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Florida Medicaid agency claimed DDMAC costs in
accordance with Federal and State requirements.

Scope

We reviewed DDMAC costs for DCF from October 1, 2003, through December 31, 2005. Due
to the transfer of the DDMAC program initiative from DCF to APD, we also reviewed DDMAC
costs for APD from July 1, 2005, through September 30, 2006.

We limited our internal control review to DCF’s and APD’s systems and procedures for claiming
administrative costs to the extent necessary to accomplish our objectives. Further, we concluded
that our review of the Medicaid agency’s internal control structure could be conducted more
efficiently by substantive testing.

We performed our fieldwork at the DCF offices in Tallahassee, Florida.

Methodology

To accomplish our objective, we:

          reviewed Federal requirements on Medicaid contingency fee arrangements;

          interviewed CMS, DCF, and APD officials;

1
    For purposes of this report, RMSS refers to the Developmental Disabilities Random Moment Sampling System.


                                                        2

    	 reviewed the Medicaid agency’s contract with the consultant involved in the development
       and implementation of the DDMAC program initiative;

    	 reviewed contingency fee payments made by the State to the contractor;

    	 reviewed the approved CAP guidance outlining proper administration of the RMSS;

    	 reviewed calculations supporting Developmental Disabilities Medicaid administrative
       costs;

    	 reconciled the Medicaid agency’s earnings for DDMAC expenditures to the costs
       claimed by the Medicaid agency on the “Quarterly Medicaid Statement of Expenditures
       for the Medical Assistance Program” (Form CMS–64);

    	 compiled from the RMSS a population of 12,076 Medicaid-reimbursable strikes2 reported
       during the audit period;

    	 selected a random sample of 105 Medicaid-reimbursable strikes, reviewed the
       corresponding RMSS response sheets, and determined whether the strikes complied with
       Federal and State requirements and were, therefore, Medicaid-reimbursable; and

    	 used an estimation plan to estimate overpayments to the Medicaid agency (Appendix).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

The Florida Medicaid agency did not always claim DDMAC costs in accordance with Federal
and State requirements. Based on our sample results of the RMSS Medicaid-reimbursable
strikes, we estimated that the Medicaid agency received $1,190,949 in FFP for $2,606,617 in
administrative costs that did not comply with Federal and State requirements during Federal
fiscal years 2004 through 2006. We are not recommending recovery of the estimated
overpayment because, although our stratified random sample was statistically valid, it did not
identify a minimum of six errors per strata as required by our statistical policy.

Our sample of 105 RMSS Medicaid-reimbursable strikes identified the following eight strikes
that did not comply with Federal and State requirements and, therefore, were not Medicaid
reimbursable:

2
 A Developmental Disabilities program RMSS “Medicaid-reimbursable strike” represents an instance in which the
samplee was engaged in a Medicaid administration activity at the specific moment sampled.



                                                      3

   	 three strikes for which the comments did not support a Medicaid-reimbursable activity
      code,

   	 three strikes for which the samplee failed to annotate the correct sample time and/or date,

   	 one strike which was not properly validated, and

   	 one strike that contained unauthorized changes.

We did not find errors in the remaining 97 RMSS Medicaid-reimbursable strikes.

The Medicaid agency inappropriately claimed FFP for administrative costs because the State
agency and its partners in the DDMAC program initiative did not have adequate controls to
prevent non-qualifying strikes (about an 8 percent error rate) from being counted as Medicaid-
eligible strikes. Furthermore, RMSS participants were not adequately trained in RMSS
procedures.

PROGRAM REQUIREMENTS

Federal and State Medicaid administrative costing requirements are contained in Federal law and
a U.S. Department of Health & Human Services guide (below). Random Moment Sampling
requirements specific to Florida’s DDMAC Program are contained in section 14 of Florida’s
approved CAP.

Federal Law

Office of Management and Budget (OMB) Circular A-87, Attachment A (C)(1)(j), states that
costs must be adequately documented to be allowable.

OMB Circular A-87, Attachment C (A)(1), states “ ... there needs to be a process whereby these
central service costs can be identified and assigned to benefitted activities on a reasonable and
consistent basis. The central service cost allocation plan provides that process. All costs and
other data used to distribute the costs included in the plan should be supported by formal
accounting and other records that will support the propriety of the costs assigned to Federal
awards.”

Federal regulations (45 CFR § 95.517(a)) state, “A State must claim FFP for costs associated
with a program only in accordance with its approved cost allocation plan.”

U.S. Department of Health & Human Services Guide

The U.S. Department of Health & Human Services guide entitled A Guide for State and Local
Government Public Assistance Agencies/Departments: Procedures for the Preparation and
Submission of Cost Allocation Plans states in The Standards and Procedures for Random
Moment Sampling, section II General Concepts, that “[i]t is imperative that a sample design,


                                                4

once developed, be strictly adhered to. Violation in application of the sample design will
introduce a bias that can invalidate the sample.”

Florida’s Cost Allocation Plan

Florida’s CAP, section 14, page 14.9 requires that a participant complete three items on the
RMSS response form as follows:

   	 The participant must select the appropriate code for the activity they were engaged in at
      the exact time of the sample moment.

   	 The participant must provide a one sentence description of the activity engaged in at the
      exact time of the sample moment in the “Comments” section of the form.

   	 The participant must sign and reflect the time and date the sample was completed, which
      should correspond with the time and date of the sampled moment.

The CAP, section 14, page 14.8 states: “The Samplee, Sample Coordinator, or the designated
Alternate Sample Coordinator must sign and date when the RMS form is part of the 10 [percent
Quality Assurance] validation .... Thus, the Samplee and the Coordinator will sign and reflect
the date and time in which the sample was completed. This should correspond to the time and
date on the observation form.”

The CAP, section 14, page 14.9 states: “You should not make any changes to information that
has been incorrectly entered on the form. Only the District/Region Coordinator can correct
errors and they have been provided with specific instructions on how to correct mistakes.”

UNALLOWABLE MEDICAID ADMINISTRATIVE COSTS

Random Moment Sampling System Errors

Our sample of 105 RMSS Medicaid-reimbursable strikes identified eight strikes that did not
comply with Federal and State requirements and, therefore, were not reimbursable for Medicaid
as follows:

   	 Comments supporting three strikes did not support a Medicaid-reimbursable activity. For
      example, on a response form completed for a moment sampled in November 2003, the
      samplee selected code J, which is defined in section 14 of the CAP as “Program
      Planning, Development, and Agency Coordination.” The samplee entered “Program
      Planning” in the “Comments” section of the RMSS form. The State’s sample design as
      outlined in section 14 of its CAP requires that the samplee provide a one sentence
      description of the activity engaged at the exact time of the sample moment. In this case,
      the samplee’s comment merely repeated a portion of the code definition instead of
      complying with the CAP requirement to provide a one sentence description of the activity
      engaged in at the sampled moment.



                                                5

   	 The samplees failed to annotate the correct sample time and/or date on the response form
      for three strikes on November 8, 2004; January, 18, 2006; and August 28, 2006;
      respectively. This was contrary to Florida’s CAP, which requires the participant to sign
      and enter the time and date the sample was completed. This time and date should
      correspond with the time and date of the sampled moment.

   	 The Sample Coordinator did not properly validate one moment. The moment was
      identified as one of the 10 percent of RMSS moments that required Quality Assurance
      validation by the Sample Coordinator or designated alternate. While validating the
      response form, the Sample Coordinator entered a different date and time than the actual
      sample moment time. This was contrary to Florida’s CAP, which requires that the
      Sample Coordinator sign and reflect the date and time in which the sample was
      completed and that the date and time entered corresponds to the sample moment date and
      time.

   	 The response form for one moment included an unauthorized change. The samplee
      originally dated and timed the moment with a date and time different from the sample
      moment date and time. The samplee then made changes to information that had been
      incorrectly entered on the form by writing over the incorrect date, lining through the
      incorrect time, initialing the changes, and annotating the sample moment date and time.
      This was contrary to Florida’s CAP, which requires that the samplee should not make any
      changes to information that has been incorrectly entered on the form.

Noncompliance with Program Requirements

The Medicaid agency inappropriately claimed FFP for administrative costs because the State
agency and its partners in the DDMAC program initiative did not have adequate controls to
prevent non-qualifying strikes (about an 8 percent error rate) from being counted as Medicaid-
eligible strikes. Furthermore, RMSS participants were not adequately trained in RMSS
procedures.

Excessive Medicaid Administrative Costs and Estimated Overpayments

The State determined DDMAC costs by multiplying total pooled Developmental Disabilities
administrative costs by the percentage of RMSS Medicaid-reimbursable strikes in relation to
total RMSS strikes. The inclusion of the eight non-qualifying strikes in the Medicaid count
overstated Medicaid’s share of DDMAC costs that the State agency claimed for Federal
reimbursement. As a result, we estimated that the Medicaid agency received $1,190,949 in FFP
for $2,606,617 in administrative costs that did not comply with Federal and State requirements
during Federal fiscal years 2004 through 2006. We are not recommending recovery of the
estimated overpayment because, although our stratified random sample was statistically valid, it
did not identify a minimum of six errors per strata as required by our statistical policy.




                                                6

RECOMMENDATION

We recommend that the Medicaid agency strengthen existing procedures to ensure that all RMSS
participants are sufficiently trained in RMSS procedures.

     FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS

In written comments on our draft report, the Medicaid agency stated it would work diligently to
address the recommendations. The Medicaid agency’s comments are included in their entirety as
Appendix B.




                                              7

APPENDIXES
                        APPENDIX A: ESTIMATION METHODOLOGY 


Using the State’s quarterly data and submitted methodology, we calculated estimates consistent
with the estimated allowable RMSS strike percentage as determined by our review of RMSS
strikes.

For Federal fiscal years 2004 through 2006,1 we determined a single estimated allowable RMSS
strike percentage based on a review for allowability of a stratified random sample of 105 RMSS
strikes from a population of 12,076 Medicaid-reimbursable strikes from October 1, 2003,
through September 30, 2006. Stratifying the population by State fiscal year disclosed 4,266,
4,138, and 3,672 Medicaid-reimbursable strikes, respectively, for the audit period. We randomly
selected 35 Medicaid-reimbursable strikes from each year and reviewed the selected strikes for
allowability.2

In addition, we:

    	 applied the estimated allowable RMSS strike percentage to the quarterly RMSS strikes
       submitted by the State to determine estimated allowable quarterly RMSS strikes,

    	 divided estimated allowable quarterly strikes by total quarterly strikes submitted by the
       State to determine the estimated allowable quarterly RMSS percentage,

    	 multiplied the estimated allowable quarterly RMSS percentage by the quarterly
       Developmental Disabilities administrative cost pool (submitted by the State) to determine
       estimated allowable quarterly DDMAC costs,

    	 added the estimated allowable quarterly DDMAC costs for the 12 quarters to determine
       the total estimated allowable DDMAC costs for the audit period, and

    	 compared actual Federal reimbursement claimed via the Form CMS–64 to the estimated
       allowable payments to determine estimated RMSS overpayments.




1
 The audit period included 12 quarters beginning with the quarter ended December 31, 2003, and ending with the
quarter ended September 30, 2006.
2
  We determined allowability of sampled strikes by reviewing the corresponding RMSS response sheets and
determining whether the strikes complied with Federal and State requirements and, if so, were Medicaid-
reimbursable.
APPENDIX B: FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS 





  CHARLIE CRIST
  CHARLIE CRIST
    GOVERNOR
    GOVERNOR
                                           -1N1CA
                                          FLORIDAAGENCY
                                          FLORIDA AGENCY FOR

                                         Better Health
                                         Better
                                                         FOR HEATH
                                                             HEAlTH CARE

                                                       Care for
                                                Health Care
                                                                         ADMINlSTAAnON
                                                                    CAE ADMINlSlRTiON


                                                            for all Floridians
                                                                                                           W ARNOLD
                                                                                                    THOMAS W. ARNOLD
                                                                                                       SECRETARY

                                                                13, 2010
                                                          April 13,2010



       Peter 1.
Mr. Peter     1. Barbera
Regional Inspector General,
                        General, Region
                                 RegionIV
                                        iv
Department
Department of    of Health and Human  Services
                                      Services
Offce  of Inspector General
Office ofInspector  General
61 Forsyth
   Forsyth Street,
           Street,SW
                   SWSuite
                      Suite33T41
                            T 41
Atlantt a, GA
Atlan
Atlanta,   GA 30303
              30303

     Mr.. Barbera:
     Mr
Dear Mr.  Barbera::
          Barbera

Thank you for the opportunity to respond              respond to the draft
                                                                      draft report  entitled Review of
                                                                             report entitled          of Florida's
                                                                                                         Florida's
Developmental Disabilities                  MedicaidAdministrative
                          Disabilties Medicaid               Administrative Claiming
                                                                            ClaimingCosts
                                                                                        Costs for  the Period
                                                                                              for the  Period October
2003,
2003,     Through
      Through            September
              September 30,                30,2006.
                            2006. We appreciate the efforts We
                                                            of appreciate the efforts of your staff during the course ooff
this audit.
       audit. The The Agency
                         Agency for Health Care
                                for Health Care Administration   continuously looks for
                                                Administration continuously             for opportunities
                                                                                             opportunities to
improve operations and      and is committed to
                                              to prov
                                                 proviiding cost-effective
                                                 providing  cost-effective and
                                                                             and efficient
                                                                                 effcient health care
services
services      tocitizens
         to the   the citizens
                         of    of Florida, and we will  workdiligently
                                                  wil work   diligently to
                                                                         to address
                                                                             address your
                                                                                      your recommendations.
                                                                                            recommendations..
                                                                                            recommendations

If you have any questions regarding our response, please contact
If                                                                                                     , Audit
Director
Director,, at (850) 412-3977

                                                          Sincerely,


                                                     ~wCJ!}
                                                     (ywCJIJ
                                                          Thomas W. Arnold
                                                          Secretary

TWNmb




  2727 Mahan
  2727  Mahan Drive.
               Drive. Mail
                      Mail Stop
                           Stop #1
                                #1                                                                Visit AHCA
                                                                                                  Visit      online at
                                                                                                        AHCA online
  Tallahassee, FL
  Tallahassee, FL 32308
                   32308                                                                   http://ahca.myflorida.com
                                                                                           http ://ahca.myflorida.com
